OIG Investigative Report, Former South Texas Vocational Institute President Pleads Guilty to Taking Title IV Education Funds Meant for Needy Students
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
U.S. Department of Justice
Donald J. DeGabrielle, Jr.
United States Attorney
Southern District of Texas
FOR IMMEDIATE RELEASE:
January 9, 2007
P.O. Box 61129
Houston, TX 77208 CONTACT:
Telephone 713-567-9000
or
Public Inquiry Line - 713-567-9535
Fax 713-718-3300
Website: http://www.usdoj.gov/usao/txs
Former South Texas Vocational Institute President Pleads Guilty to Taking Title IV Education Funds Meant for Needy Students
(BROWNSVILLE, TX) United States Attorney Donald J. DeGabrielle, Jr., announced
the guilty plea of Reynaldo Garcia, age 45, of Brownsville, Texas. Garcia entered
guilty pleas Monday to six felony counts including four counts of Misapplication
and Failure to Refund Title IV Funds and two counts of Making and Using A False
Writing or Document. Defendant entered the pleas before U. S. Magistrate Judge
John Black.
Information submitted to the court indicated that in 2002, the Department of
Education (ED) conducted a routine audit of South Texas Vocational Institute
(STI) located in Brownsville, Texas. A criminal investigation was initiated
when the audit revealed the misapplication of Title IV education funds obtained
by fraud and false statements, and the failure to refund said funds. Garcia
was the president and owner of STI, a school providing post-secondary education
and training in technical and vocational fields.
The investigation revealed defendant had failed to refund or disburse education
funds provided the school by ED and he had submitted false certification documents
to the Department of Education. The education funds, including Pell Grants,
were intended for financially needy students to obtain grants to meet the costs
of their post-secondary education. Garcia was to have refunded or disbursed
these education funds in the cases of approximately 79 STI students. Garcia
stated to agents he did not make the refunds and disbursements because he was
"having financial problems." An internal review of the school's financial records
show he withdrew over $300,000.00 for personal expenses during this time. Agents
learned Garcia signed and submitted false or fictitious certifications to the
U. S. Department of Education indicating no refunds were due to the Department
of Education and to students. This enabled defendant to obtain government Pell
Grants (Title IV funds) which STI was not entitled to receive. Garcia knowingly
submitted false certifications on October 29, 2001, December 10, 2001, January
10, 2002 and February 15, 2002.
Federal District Judge Micaela Alvarez, from Laredo, will sentence defendant
on April 2, 2006. The convictions for each of the counts carry a punishment
of up to 5 years imprisonment and a fine of up to $250,000.00.
This case was investigated by the U. S. Department of Education Office of Inspector
General and prosecuted by Assistant United States Attorney Oscar Ponce.
Top
Printable view
Share this page
Last Modified: 01/10/2007
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov